Certificate of Postal
Service of Petitioner Morgan Mccov
I Morgan Mccoy swear that forty true copies of this petition for writ of certiorari were
lodged with the Supreme Court of the United States at 1 First Street NE,
Washington, DC 20543 and that three true copies of this petition were served by
regular mail on defending attorney of record for Respondent Michael Bullock,
Stephen J. Chuparkoff Reg. No. 0039141, Suite 615, 50 S. Main Street, Akron, Ohio
44308, by/about

tuesday, the 14th of January, 2020 and resubmitted by/about

tuesday, the 3rd of March, 2020 as per or under Rule 14.5 and 28 USC Section 1746.
/ s / Morgan Mccov

7.

RECEIVED
MAR - 9 2020

; fv •'
i

